        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Special Report

The Department's Unclassified
Foreign Visits and Assignments
Program




DOE/IG-0791                           March 2008
                               Department of Energy
                                 Washington, DC 2 0 5 8 5

                                    March 2 4 , 2008


MEMORANDUM FOR THB SECREIARY

FROM:
                         Inspector General

SUBJECT:                 INFORMATION: Special Report on "The Department's
                         Unclassified Foreign Visits and Assignments Progran~"

BACKGROUND

The Department of Energy's national laboratories and various Federal officials interact
with thousands of foreign national visitors and assignees every year. Visits and
assignments are for a variety of purposes, including research collaborations and acccss to
scientific user facilities. While the Department reports that these interactions stimulate
ideas and foster research, they also carry inherent security risks. The Office of Foreign
Visits and Assignments and the Office of Intelligence and Counterintelligence help the
Department ensure that security risks are addressed while fostering collaboration with
foreign nationals.

In our report on The Depurhnetlt's Utlclussijied Foreigt~Visits utld Assignmerzts Progrum
(DOEIIG-0579, December 2002), we observed that the Department had not adequately
controlled unclassified visits and assignments by foreign nationals. That audit identified
issues such as admitting visitors prior to receiving required approvals, not completing
background checks, and neglecting to enter appropriate and accurate infornlation into the
Department's Foreign Access Central Tracking Systcm (FACTS). Management agreed to
take corrective action and has since issued a new Department order to govern these
activities. Due to the sensitivity of the program and the potential for harm, we initiated
this review to determine whethcr thc Department had improved the management of its
Foreign Visits and Assignments Program.

OBSERVATIONS AND CONCLUSIONS

The Department had addressed several previously reported issues. Additional and
continuing weaknesses, however, diminished the effectivcncss of controls designed to
reduce the security risk associated with foreign visits and assignments. In particular,
hosts for foreign nationals individuals responsible for the day-to-day management and
                           -



security associated with visits or assignments had not ensured that a number of
                                               -



protective measures were implemented. For example, certain hosts did not always:

       Take action to ensure that site or facility access was terminated when the foreign
       nationals completed visits or assignments. In one extreme case, we found that a
       visitor, whose assignment had been revoked, did not have his access authorization
       cancelled and was able to cnter the former host facility after normal operating
       hours without being discovered;
                                               2


      •   Familiarize themselves with or enforce specific security plans – plans designed to
          restrict movements, activities and/or access – for visitors they were assigned to
          host from sensitive countries such as China and India;

      •   Verify the identity and validity of foreign nationals' immigration status
          information prior to or periodically during assignments or visits as required for
          off-site visits; and,

      •   Ensure that required counterintelligence reviews were conducted prior to
          permitting foreign nationals to access sensitive information systems and data.

We also identified a significant and continuing problem with the maintenance and
accuracy of FACTS that detracted from the Department's ability to track the immigration
status or other factors for its many foreign visitors and assignees. Specifically:

      •   For 104 of the 188 (approximately 55 percent) randomly selected FACTS visits or
          assignments we reviewed, tracking information was not properly entered,
          contained errors, or was not up-to-date.

When viewed collectively, these problems or programmatic shortcomings caused us to
conclude that security risks associated with the Department's Foreign Visits and
Assignments Program remain higher than necessary. Contractor operated laboratories
had not ensured that hosts were cognizant of their responsibilities and were performing
them properly. Those laboratories and the Office of Foreign Visits and Assignments also
had not taken sufficient steps to ensure that data in the FACTS was reliable. Problems
with recordkeeping and tracking could limit the Department's ability to provide accurate
and/or complete foreign national information to law enforcement agencies.

To its credit, the Department had addressed a previously identified issue – ensuring that
foreign nationals had current passports and visas for on-site visits and assignments. Yet,
we concluded that more needs to be done to reduce the risk that individuals harboring
malicious intent could access sensitive information or damage facilities. Thus, the
attached report includes several recommendations designed to address the problems noted
in our review.

We also noted another matter for consideration pertaining to cyber access controls at one
National Nuclear Security Administration (NNSA) laboratory. This matter is discussed
more fully in Appendix 2 of the report.

MANAGEMENT COMMENTS

Management generally concurred with our findings and recommendations and in certain
instances indicated that corrective actions had been initiated. NNSA submitted informal
comments and indicated that it would develop corrective actions and monitor progress to
completion. Formal Management comments are included as Appendix 4.

Attachment

cc:       Acting Deputy Secretary
          Administrator, National Nuclear Security Administration
Under Secretary of Energy
Under Secretary for Science
Chief of Staff
SPECIAL REPORT ON THE DEPARTMENT'S UNCLASSIFIED
FOREIGN VISITS AND ASSIGNMENTS PROGRAM

TABLE OF
CONTENTS


    Management of Unclassified Foreign Visits and Assignments

    Details of Finding ....................................................................................................1

    Recommendations....................................................................................................7

    Comments ................................................................................................................8


    Appendices

    1. Objective, Scope, and Methodology..................................................................9

    2. Other Matter for Consideration........................................................................11

    3. Prior Reports ....................................................................................................12

    4. Management Comments ..................................................................................13
MANAGEMENT OF UNCLASSIFIED FOREIGN VISITS AND
ASSIGNMENTS

Tracking and Hosting   Weaknesses in hosting and tracking diminished the
Foreign Nationals      effectiveness of the Department of Energy's (Department)
                       Foreign Visits and Assignments Program. In particular, our
                       review of foreign visits at four laboratories and two
                       Headquarters offices revealed that foreign national hosts
                       were not performing a number of required tasks.
                       Specifically hosts did not always: (1) take action to ensure
                       that site or facility access was properly and promptly
                       terminated when the visit or assignment was completed;
                       (2) become familiar with and ensure that visitors or
                       assignees complied with individualized security plans; (3)
                       verify the identity and validity of foreign nationals' status
                       information for off-site visits as required; and, (4) ensure
                       that counterintelligence reviews were completed prior to
                       permitting foreign nationals to access sensitive information
                       systems and data. We also noted that a significant and
                       continuing problem with the maintenance and accuracy of
                       the Department's Foreign Access Central Tracking System
                       (FACTS) had not been resolved.

                                    Host Responsibilities and Actions

                       To help reduce risk, the Department requires that a host be
                       appointed to define and control the work and access of each
                       visitor or assignee. Hosts are responsible for the successful
                       conduct of the foreign visit, including keeping site officials
                       informed of the visit or assignment status; ensuring
                       tracking systems are kept up-to-date with accurate and
                       complete information; and complying with visitor-specific
                       security plans. In addition, in certain cases such as at off-
                       site meetings, the host must obtain and/or validate foreign
                       national status documentation, i.e. visas and passports.
                       These required actions are particularly important because
                       nearly all of our sampled visitors represented countries
                       such as the People's Republic of China, India, and Russia –
                       states that are considered "sensitive" because of national
                       security, nuclear nonproliferation, or terrorism support
                       concerns. As detailed in the following paragraphs,
                       however, we discovered that hosts were often not always
                       aware of the full scope of their duties or mistakenly
                       believed that other organizations or individuals were
                       responsible for satisfying security requirements.




________________________________________________________________
Page 1                                            Details of Finding
                      Updating Visit or Assignment Status

                      Hosts at various sites told us that they had not always kept
                      site officials informed of the status of visits or assignments
                      as required. Many of the hosts stated that even though they
                      were aware that a particular collaboration had ended or a
                      need to visit a user facility no longer existed, they had not
                      notified Foreign Visits and Assignments Program managers
                      that the visit should be closed out and facility access
                      terminated. We found, based on host interviews at one
                      laboratory, that 14 of the 27 foreign nationals selected for
                      review no longer needed site access because the visit or
                      collaboration had been completed. For example, one
                      assignee no longer needed access to the user facility at a
                      particular laboratory because he was conducting his
                      research at another laboratory. In another case, an
                      assignee, that accepted a job in Italy, had reportedly
                      departed the United States and was no longer involved in a
                      project with the laboratory. Another host told us that a
                      particular assignee had completed the work and the
                      collaboration was no longer necessary.

                      Security Plans

                      Hosts were not always cognizant of and did not enforce
                      security plans designed to restrict the access and/or scope
                      of the visitor or assignee. For visitors and assignees from
                      sensitive countries, a specific security plan must be
                      developed for each foreign national. These security plans
                      are required to address concerns such as the type of security
                      area to be visited and types of information to be accessed.
                      Four of the nine hosts interviewed at one Office of Science
                      (Science) laboratory advised us that they did not have a
                      specific security plan in their possession nor were they
                      otherwise familiar with the content of the security plan. At
                      another Science laboratory, 12 of 23 hosts indicated that
                      they were unfamiliar with the specific security plans for
                      their visitors. At both locations, many hosts said that
                      individual security plans were maintained by an
                      administrative staff member in their division, but the
                      security plans were neither provided to nor read by the
                      host.

                      Validating Status Documentation

                      At one National Nuclear Security Administration (NNSA)
                      laboratory and one Headquarters office, hosts were not
________________________________________________________________
Page 2                                            Details of Finding
                      always obtaining and/or validating status documents such
                      as passports and visas for foreign visitors as required.
                      Hosts for visitors at the NNSA laboratory were specifically
                      required to take these actions for visitors or assignees not
                      physically working at the laboratory; i.e., those involved in
                      collaborations at off-site locations. In some cases, hosts
                      arranged for this class of visitor or assignee to obtain
                      remote access to the laboratory's information systems.
                      Hosts are responsible for obtaining and providing up-to-
                      date status documents to the foreign visits office in these
                      instances and also examining previously-provided
                      information to validate the identity of foreign nationals.

                      At the NNSA site where foreign visitors were involved in
                      off-site collaborations, hosts were not always obtaining
                      immigration status information from foreign visitors. In
                      three of four cases we reviewed involving off-site
                      collaboration, the hosts indicated that they did not obtain
                      up-to-date status information for visitors, nor did they
                      provide the information to the foreign visits office. These
                      hosts also did not visually inspect status documents. As a
                      result, status information for these visitors did not exist or
                      was not accurate in either the site foreign visitor tracking
                      database or FACTS and it was uncertain that the foreign
                      nationals were in valid status for the duration of the visit or
                      assignment.

                      During our testing at one Headquarters office, we also
                      learned that despite Departmental security requirements to
                      the contrary, hosts were not required by that office to
                      visually inspect and verify passport and visa information at
                      the time of foreign visitor arrival at Headquarters facilities.
                      Obtaining and validating up-to-date status documents
                      ensures that passport and visa information is correct before
                      allowing access to Department facilities and is important to
                      demonstrate that an individual's identity and authority to
                      work are valid, access for certain activities is appropriate,
                      and the foreign national is eligible to be in the United
                      States. During the course of our review, the Headquarters
                      office in question acknowledged this weakness and
                      immediately mandated the verification of passport and visa
                      data.

                      Access to Sensitive Data

                      At one NNSA laboratory, some hosts were not providing
                      necessary information to ensure that required
________________________________________________________________
Page 3                                            Details of Finding
                      counterintelligence reviews were conducted prior to
                      permitting foreign nationals to access sensitive information
                      systems and data. Department directives mandate that a
                      counterintelligence review must occur for all foreign
                      nationals who have access or potential access to sensitive
                      information. Such information may reside on computer
                      systems and could include categories of unclassified
                      controlled information such as export control, proprietary,
                      or unclassified controlled nuclear information. Hosts did
                      not always ensure an annotation was made in the
                      "sensitive" subject field of the laboratory's foreign national
                      tracking system – an action that would automatically
                      trigger the performance of needed national indices checks
                      and local counterintelligence reviews.

                                          Centralized Tracking

                      Similar to the issue identified in The Department's
                      Unclassified Foreign Visits and Assignments Program
                      (DOE/IG-0579, December 2002), laboratories were still not
                      ensuring that the Department's official complex-wide
                      database for tracking all foreign national visitors and
                      assignees was current and complete. Biographical and
                      personal information, including passport and visa
                      information, for each foreign visitor, is required to be
                      entered by field sites into FACTS, the Department's official
                      database. Such information contains identification
                      numbers and passport and visa expiration dates and is
                      critical because visitors are not authorized to be in the
                      United States without current credentials. While field sites
                      are allowed to maintain their own tracking systems,
                      FACTS is the only foreign visitor tracking database
                      authorized by the Department and is the official source
                      used to report information to Congress and other
                      stakeholders. Because sites are maintaining their own
                      systems, the Department permits sites to upload data to the
                      FACTS from site-level tracking systems to eliminate the
                      burden of duplicate entry. Our analysis, however,
                      established that three of the four national laboratories in our
                      review were not ensuring that site-level information was
                      correct in FACTS.

                      Testing of FACTS data for one NNSA and two Science
                      laboratories revealed significant and continuing problems
                      with the accuracy of legal status documentation, such as
                      visa and legal permanent resident information. For 104 of
                      the 188 randomly selected visitors we reviewed, all of
________________________________________________________________
Page 4                                            Details of Finding
                      which were from sensitive countries, tracking information
                      was not properly entered, contained errors, or was not up-
                      to-date. Specifically, 53 of the 58 sampled visitors at an
                      NNSA laboratory, 32 of 64 sampled visitors at one Science
                      laboratory, and 19 of 66 sampled visitors at another Science
                      laboratory either contained no legal status information or
                      such data was out-of-date.

                      Additionally, the three laboratories were not ensuring that
                      visits were closed in FACTS within the prescribed 15 day
                      timeframe. Of the 179 completed visits we evaluated, 96
                      had not been closed within the prescribed time period. The
                      table below illustrates the number of days taken to
                      officially close each visit associated with our sampled
                      foreign national visitors.

                                    Number of Days to Close Visit or
                                    Assignment
                                       15 or    16-     Over        Total
                                      Fewer     90       90
                       Science          23       19      11          53
                       Laboratory
                       Science            19         17        0           36
                       Laboratory
                       NNSA               41         12       37           90
                       Laboratory
                       Totals             83         48       48           179

                      It is important to note that 24 visits or assignments
                      remained open for more than a year after they should have
                      been closed.

                      In a related issue, at both of the Science laboratories,
                      visitors and assignees were often given access to the sites
                      for a two-year time period although they may or may not be
                      at the site for that entire duration. This practice was used
                      primarily to accommodate visits to user facilities for which
                      actual visit dates were unknown at the initiation of the visit
                      or assignment. In many cases, the purpose for the initial
                      visit may be accomplished in less time, but the visit is not
                      "closed" until the end of the two-year period. As a
                      consequence, visitors or assignees unnecessarily retain their
                      security badges and have the ability to access the site for
                      the entire two-year period.




________________________________________________________________
Page 5                                            Details of Finding
Departmental Foreign   Hosting and tracking weaknesses existed because:
National Tracking      (1) site foreign visits and assignments managers were not
and Hosting            validating that hosts were meeting established
Requirements           requirements; and, (2) neither field sites nor Headquarters
                       officials were conducting basic data comparisons.
                                         Validating Host Activities

                       Although host-specific training existed, laboratories in our
                       review were not validating that hosts were effectively
                       fulfilling their responsibilities. Each of the laboratories
                       required specific training to qualify individuals to host
                       foreign nationals. Training generally covered requirements
                       regarding notification of visit or assignment end dates,
                       familiarity with specific security plans, and information
                       hosts should be providing, such as a need for access to
                       sensitive information. While all hosts we interviewed had
                       received the applicable training, they were not meeting
                       many of their hosting requirements and responsibilities.

                                            Data Comparisons

                       Organizations also did not take action to ensure that foreign
                       visit information was correct and/or periodically
                       reconciled. Based on the extensive differences identified in
                       our comparison of site-level foreign visit information to
                       data in FACTS, we concluded that field sites were not
                       conducting basic comparisons of data maintained in their
                       own tracking systems to that in FACTS. Our work
                       demonstrated that even basic visual data checks – such as
                       comparing the expiration dates of visas between the
                       systems – would have revealed inadequacies with data in
                       FACTS. Further, while FACTS had the capability to sort
                       and search data, the Office of Health, Safety and Security's
                       (HSS) Office of Foreign Visits and Assignments had not
                       built basic edit checks into FACTS and was not otherwise
                       using program tools to identify problems such as visa
                       expiration dates that preceded end visit dates or visits that
                       did not have visa information at all. For example, a review
                       of FACTS data from one Office of Science site revealed
                       that visas for 15 of 66 visitors in our sample had expired
                       before their visits even began.

Mitigating Security    Weaknesses in the Department's foreign visits and
Risks                  assignments program increase the security risk for the
                       Department's facilities and information. For example, at
                       least one visitor accessed a laboratory using a valid
                       identification badge on two occasions the month after his
________________________________________________________________
Page 6                                            Details of Finding
                     assignment had been revoked. Site officials were unaware
                     of the unauthorized access until we brought it to their
                     attention.

                     The unauthorized access is exacerbated by the fact that the
                     same visitor's background check had expired four months
                     prior to the two unauthorized visits, which were made after
                     the site's normal operating hours. Due to the fact that
                     foreign national maintained an active visit and security
                     badge in laboratory systems, he was able to access the site
                     without question. Neither the host nor other site officials
                     could explain his purpose or whereabouts on the site. The
                     situation could have been avoided had the visit been closed
                     and site access terminated at the same time the assignment
                     was revoked.

                     While the Department must adhere to its mission to foster
                     and advance scientific research and development,
                     minimizing risks is important because the national
                     laboratories hold some of our most valuable national
                     security assets. Research essential to our national defense
                     relies increasingly on unclassified science and technology,
                     and thousands of foreign nationals from institutions around
                     the world interact with laboratory employees at Department
                     facilities. While we recognize that documenting and
                     tracking foreign national visitors and assignees requires
                     additional attention and effort at the site-level, the risk or
                     damage to the Nation's security interests demand vigilance.
                     The Department must ensure that it maintains needed
                     information and is prepared to respond to inquires in a
                     timely manner.


RECOMMENDATIONS      To help ensure that Department requirements for foreign
                     national accountability, access and control are
                     comprehensively detailed and consistently applied, we
                     recommend that the Administrator, NNSA and the Under
                     Secretary for Science require that field sites:

                          1. Ensure hosts are meeting requirements for
                             updating visit status, familiarizing themselves
                             with specific security plans, validating status
                             documentation as necessary, and providing full
                             details of required sensitive information access;




________________________________________________________________
Page 7                                          Recommendations
                          2. Take immediate action to close completed visits
                             or assignment in FACTS and terminate access to
                             sites and facilities that is no longer required; and

                          3. Ensure required foreign visitor and assignee
                             information is accurate and complete in FACTS.

                     To help ameliorate increased risks associated with foreign
                     national interaction and ensure that complete status
                     information is available, we recommend that the Chief
                     Health, Safety and Security Officer:

                          4. Require that the Office of Foreign Visits and
                             Assignments implement data comparisons,
                             including edit checks and/or error reports
                             generated on a periodic basis, to help ensure that
                             information entered into FACTS is accurate and
                             complete.


MANAGEMENT           Management agreed with the information in the report
REACTION             and generally concurred with each of the specific
                     recommendations. In a joint response, the Offices of
                     Science and HSS provided comments on intended actions.
                     Science is taking immediate action to work with its
                     Integrated Support Center to close visits and assignments
                     that are no longer required. Additionally, Science will
                     work closely with field sites and HSS in implementing the
                     additional recommendations. HSS responded that its
                     Office of Foreign Visits and Assignments had already
                     begun development of a FACTS modification to add edit
                     checks and error reports to reject the entry of inaccurate
                     and/or incomplete information. In its informal comments,
                     NNSA indicated that it concurred with the findings and
                     recommendations and pledged to take necessary corrective
                     actions. It did not, however, provide a corrective action
                     plan.


AUDITOR              Management's comments are responsive to our
COMMENTS             recommendations.




________________________________________________________________
Page 8                                                 Comments
Appendix 1

OBJECTIVE             The objective of our review was to determine whether the
                      Department of Energy (Department) had improved the
                      management of its Foreign Visits and Assignments Program.

SCOPE                 The review was performed at Headquarters and four national
                      laboratories, two managed by the Office of Science (Science)
                      and two managed by the National Nuclear Security
                      Administration (NNSA), from August 2006 through February
                      2008. The universe of our samples consisted of foreign
                      national visitors, assignees, and employees at those sites from
                      October 2004 through May 2007.

METHODOLOGY           To accomplish our objective, we:

                         •   Reviewed Department and site-specific policies,
                             procedures, and training materials related to
                             unclassified foreign national visits and assignments;

                         •   Reviewed lists of foreign national visitors, assignees,
                             and employees provided by the Department's Foreign
                             Access Central Tracking System, site badge systems,
                             and site foreign visits and assignment systems;

                         •   Randomly selected samples of 66 sensitive country
                             foreign national visitors, assignees, and employees from
                             one Science-managed laboratory, 64 from the other
                             Science-managed laboratory, and 58 from the NNSA-
                             managed laboratory;

                         •   Judgmentally selected a sample of 100 sensitive and
                             non-sensitive country foreign national visitors and
                             assignees from the other NNSA-managed laboratory;

                         •   Randomly selected samples of 55 and 54 visitors and
                             assignees from each of the Headquarters offices
                             selected for review;

                         •   Reviewed supporting documentation for our sample of
                             foreign national visitors, assignees, and employees;

                         •   Interviewed officials from the Headquarters Office of
                             Foreign Visits and Assignments, Counterintelligence,
                             and selected site security, foreign visits, and
                             Counterintelligence offices to gain and understanding
                             of roles, responsibilities, and procedures; and,

________________________________________________________________
Page 9                             Objective, Scope, and Methodology
Appendix 1 (continued)

                          •   Interviewed officially-designated foreign national hosts
                              judgmentally selected from our samples to obtain
                              supporting information on visitors or assignees.

                       We assessed performance measures established under the
                       Government Performance and Results Act of 1993. While
                       specific performance measures concerning foreign visits and
                       assignments did not exist, performance in this regard was
                       either measured by each laboratory's safeguards and securities
                       reviews or will be enhanced with the implementation of our
                       recommendations and suggestions.

                       Management waived an exit conference.




________________________________________________________________
Page 10                             Objective, Scope, and Methodology
Appendix 2

                    OTHER MATTERS FOR CONSIDERATION


In addition to weaknesses identified in the overall unclassified Foreign Visits and
Assignments Program discussed in this report, we also identified an additional cyber-
specific issue at one of the National Nuclear Security Administration (NNSA)
laboratories in our review. Specifically, the laboratory had not fully mitigated the risk of
foreign nationals gaining unauthorized access to its unclassified Intranet.

Officials at one NNSA laboratory indicated that security features on many laboratory
desktop and laptop computers used by foreign national visitors and assignees were not
always implemented. We learned from laboratory security officials that software controls
designed to prevent foreign nationals from circumventing security features were
implemented on laboratory computers assigned to sensitive country foreign nationals.
These controls were not, however, implemented on most computers assigned to non-
sensitive country foreign nationals. According to officials, users circumventing security
features on computers could modify log-on settings, load unauthorized software, remove
software, and change computer settings – ultimately permitting unauthorized access to
the laboratory's information systems.

Laboratory officials also revealed that some foreign visitors and assignees enjoyed
unsupervised use of their foreign government, university, or business laptops in
laboratory facilities with live Intranet connections. Both Department and laboratory
policy allows both U.S. citizens and non-sensitive country foreign nationals to bring their
government, business, or university laptop computers on to the site for unclassified,
stand-alone use. Counterintelligence officials at the laboratory told us that they were
concerned with the current practice because foreign nationals could connect their
computer equipment to the laboratory's Intranet without authorization. These
connections pose a threat and could permit the foreign nationals to download large
amounts of data, probe the network for vulnerabilities, and implant malicious code.

SUGGESTIONS FOR IMPROVEMENT

To help decrease the risk associated with foreign national data access and computer
operation, we suggest that NNSA require the laboratory to:

   1. Strengthen security and access controls for computers operated by foreign
      nationals to help prevent or detect unauthorized or malicious use; and,

   2. Specifically restrict the connection of all non-U.S. Government owned equipment
      to the laboratory's network and Intranet.




______________________________________________________________
Page 11                              Other Matters for Consideration
Appendix 3

                                  PRIOR REPORTS

Office of Inspector General

   •   The Department's Unclassified Foreign Visits and Assignments Program
       (DOE/IG-0579, December 2002). That audit identified three deficiencies in
       adequately controlling unclassified visits and assignments at two national
       laboratories. Those deficiencies included failures to ensure that: (1) all foreign
       nationals had current passports and visas; (2) foreign nationals were not granted
       site access prior to official approval and before background checks or
       counterintelligence consultations were completed; and, (3) sufficient information
       was provided to the Department of Energy's (Department) centralized tracking
       system, which was designed to facilitate complex-wide tracking of the status of
       foreign nationals.

   •   Our office conducted a series of annual Inspections from 2000 – 2006 of export
       licensing controls in the Department. These inspections were also part of an
       effort with other agencies that conduct these activities such as Commerce,
       Defense, and Homeland Security. The most recent inspection, The Department of
       Energy's Review of Export License Applications for China (DOE/IG-0723, April
       2006), concluded that the export license review process to control the export of
       critical technologies to China was appropriate and consistent with existing
       procedures. However, it also noted that access by Department officials
       conducting license reviews to end user-review information maintained by one
       National Nuclear Security Administration laboratory could be improved, and
       included a recommendation to address the concern. Additionally, it reported that
       12 of 15 recommendations made in the earlier Inspections had been closed, but
       that export control guidance still needed to be consistently implemented
       throughout the Department complex and appropriate action was necessary to
       ensure that licensing officers have access to and proper training in the use of the
       Department of Commerce's Export Control Automated Support System.




________________________________________________________________
Page 12                                              Prior Reports
Appendix 4




________________________________________________________________
Page 13                                     Management Comments
Appendix 4 (continued)




________________________________________________________________
Page 14                                     Management Comments
                                                             IG Report No. DOE/IG-0791

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
